               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Use of Non-Traditional Full-Time and
   Postal Support Employee Positions
        in Processing Operations

                       Audit Report




                                              May 17, 2013

Report Number NO-AR-13-003
                                                                                 May 17, 2013

                                               Use of Non-Traditional Full-Time and Postal
                                               Support Employee Positions in Processing
                                                                               Operations

                                                               Report Number NO-AR-13-003



BACKGROUND:
The U.S. Postal Service ended fiscal               positions in FY 2012, non-traditional full-
year (FY) 2012 with a record net loss of           time employees increased from 507 at
$15.9 billion. This followed a net loss of         the beginning of the year to 3,708 at the
$5.1 billion for the previous year. In an          end of the year. Postal support
effort to reduce costs and improve                 employees increased from 5,632 to
staffing flexibility, the Postal Service and       7,559. The use of flexible positions was
the American Postal Workers Union                  hindered by:
agreed to create two new flexible
employee categories: non-traditional                  Employees’ reluctance to bid on non-
full-time and postal support employee                  traditional full-time positions of less
positions, effective May 23, 2011. The                 than 40 hours per week.
Postal Service estimates significant cost             Difficulties in staffing and scheduling
savings in utilizing these new employee                non-traditional full-time employees.
categories. The non-traditional full-time              This was largely attributed to lack of
position is a bid position with a regular              supervisor training.
weekly schedule of 30-48 hours, while                 Lack of available positions in some
the postal support employee position is                plants.
a part-time non-career position that may
be scheduled for as few as 2 hours a               Consequently, if the Postal Service
day or as many as 40 or more hours in a            hired postal support employees up to
work week. This position may not                   contract limits, it could have reduced
exceed 360 calendar days per                       labor and overtime costs in FY 2012 by
appointment.                                       more than $30.6 million.

Our objective was to assess the use of             WHAT THE OIG RECOMMENDED
non-traditional full-time and postal               We recommended the vice president,
support employee positions. This report            Network Operations, direct managers to
responds to a request from the                     provide additional training to improve
postmaster general.                                the utilization and supervision of non-
                                                   traditional full-time positions and
WHAT THE OIG FOUND:                                periodically evaluate postal support
While Postal Service managers showed               employee staffing to optimize usage of
improvement in increasing the use of               these employees.
both positions, they have not hired to
the fullest extent allowed by the                  Link to review the entire report
contract. For example, of total clerk
May 17, 2013

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Use of Non-Traditional Full-Time and Postal
                           Support Employee Positions in Processing Operations
                           (Report Number NO-AR-13-003)

This report presents the results of our audit of the Use of Non-Traditional Full-Time and
Postal Support Employee Positions in Processing Operations (Project Number
13YG002NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Jeffrey C. Williamson
    Sean M. Lacey
    Corporate Audit and Response Management
Use of Non-Traditional Full-Time                                                                                   NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Non-Traditional Full-Time and Postal Support Employee Utilization ............................... 2

Impacts............................................................................................................................ 4

   Labor Costs Savings ................................................................................................... 4

   Overtime Cost Savings ................................................................................................ 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Labor Cost Savings ................................................................................... 12

Appendix C: Monetary Impact ....................................................................................... 14

Appendix D: Management's Comments ........................................................................ 15
Use of Non-Traditional Full-Time                                                                      NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



Introduction

This report presents the results of our audit of the Use of Non-Traditional Full-Time
(NTFT) and Postal Support Employee (PSE) Positions in Processing Operations
(Project Number 13YG002NO000). Our objective was to assess the use of NTFT and
PSE positions. This report responds to a request from the postmaster general and
addresses operational risk. See Appendix A for additional information about this audit.

The 2010-2015 National Agreement between the U.S. Postal Service and the American
Postal Workers Union (APWU), effective May 23, 2011, created two new employee
categories:

   The NTFT duty assignments, part of the full-time employee complement, are
    comprised of regular weekly schedules with total hours of between 30-48.
    Management may change the start times and off days of these employees from
    week to week. If the NTFT schedule has 3 or more scheduled days off, at least
    2 days must be consecutive.

   The PSE is comprised of non-career, bargaining unit employees who replaced
    casual employees.1 These employees must pass a test and may not exceed
    360 calendar days per appointment. While there is no guarantee of regular hours, a
    PSE must work a minimum of 2 hours when scheduled.

Management intended these two employee categories to help the Postal Service reduce
costs and improve flexibility. The Joint Contract Interpretation Manual (JCIM), effective
August 27, 2011, eliminated part-time flexible (PTF), part-time regular (PTR), and
casual clerks working in processing and distribution center (P&DC) Function 1
operations.2

Conclusion

While Postal Service managers showed improvement in increasing the use of both
positions, they did not hire to the fullest extent allowed by the contract.

The use of flexible positions was hindered by:

   Employees’ reluctance to bid on NTFT positions of less than 40 hours per week.




1
  A non-career non-bargaining unit employee with a limited term appointment who performs duties assigned to
bargaining unit positions as described in the applicable national agreement or other collective bargaining agreements.
2
  Function 1 is a workhour category used to record mail processing activities.
                                                           1
Use of Non-Traditional Full-Time                                                                  NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations

   Difficulties in staffing and scheduling NTFT employees. This was largely attributed to
    lack of supervisor training.

   Lack of available positions at some plants due to overstaffing.

Consequently, if the Postal Service had hired PSEs up to contract limits, it could have
reduced labor and overtime costs, resulting in savings of more than $30.6 million in
fiscal year (FY) 2012.

Non-Traditional Full-Time and Postal Support Employee Utilization

While Postal Service managers showed improvement in increasing the use of both
types of positions in FY 2012, they did not hire to the fullest extent allowed by the
contract.3 For example, in October 2011, there were 507 NTFT positions (.8 percent of
total mail processing clerks) and by September 2012, the number of these positions had
increased to 3,708 (5.7 percent of clerks). Similarly, the average number of NTFT
positions increased from 2,732 in FY 2012 to 3,631 in the first 5 months of FY 2013.
However, in spite of this improvement, the use of NTFT employees was still significantly
below the amount allowed by the contract, which is 50 percent of total clerks in a
district. For FY 2012, the maximum number of allowable NTFT employees averaged
33,335 employees (see Figure1).

                    Figure 1. NTFT Employee Usage by Month (National)
                           October 2011 Through February 2013




Source: Enterprise Data Warehouse (EDW), February 2013.


3
 The APWU contract states that the PSE Function 1 clerk workforce may not exceed 20 percent of Function 1 clerk
employees within a particular district, except in accounting periods 3 and 4.

                                                       2
Use of Non-Traditional Full-Time                                               NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



In October 2011, there were 5,632 PSE positions (8.5 percent of the mail processing
clerks) and, by September 2012, these positions had increased to 7,559 (11.6 percent
of the clerks). Beginning in October 2012, hiring of PSEs accelerated and for the first
5 months of FY 2013, the average number of PSEs rose to 10,114 (or 15.4 percent of
the clerks). By February 2013, accelerated hiring combined with the reduction in staff
resulting from retirement incentives helped the Postal Service reach 12,170 PSE
positions, or 19.5 percent of the clerk workforce (see Figure 2).

                          Figure 2. PSE Usage by Month (National)
                            October 2011 Through February 2013




Source: EDW, February 2013.

The Postal Service did not use these positions to the extent allowed by the contract.

   Plant managers had difficulty hiring NTFT employees in some cases because
    employees did not want to bid on positions that would reduce their workhours to less
    than 40 per week. For example, at one facility, 13 NTFT positions were posted, but
    only one person applied for a position. At another facility, 20 positions were posted,
    but only one employee applied. While interviewing plant managers, we learned they
    had difficulty filling NTFT positions of less than 40 hours per week.

   Furthermore, some supervisors were not properly trained on the contractual
    requirements regarding the scheduling of NTFT employees. For example,
    137 separate grievances were filed largely in association with the roll out and the
    scheduling issues associated with the NTFT positions. These grievances totaled
    about $118,000 in settlements to the union. In addition, the APWU also filed a


                                             3
Use of Non-Traditional Full-Time                                                                      NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations

      national grievance4 concerning the improper scheduling of consecutive days off for
      NTFT employees.

     Finally, some P&DCs did not have available positions they could fill with PSEs. For
      example, based on our assessment of overall plant efficiency in FY 2011,5 we
      identified about 14 million excessive workhours, indicating that some facilities had
      too many employees. These facilities cannot hire PSEs until positions become
      available through employee attrition. The Postal Service, in order to promote
      employee attrition, offered retirement incentives totaling $15,000 per employee. As a
      result, in January 2013, the Postal Service accepted the early retirement of about
      26,500 APWU employees, which will allow management to hire PSEs.

Impacts

As a result of not using flexible employee positions to the fullest extent possible in
FY 2012, the Postal Service did not fully realize labor cost savings and overtime
reduction.

Labor Costs Savings

A comparison of labor rates between PSE and Function 1 full-time and NTFT
employees showed a significant labor cost savings associated with PSEs. For example,
Function 1 full-time and NTFT employees earned about $44.51 and $43.88 per hour,
respectively, while PSEs earned just $17.59 per hour, or about 40 percent of their
counterparts (see Table 1).

           Table 1. Labor Rates for Function 1 Full-Time, NTFT, and PSE Clerks

                                                                  FY 2012 Cost
                                 Type of Employee
                                                                  Per Workhour
                             Function 1 Full-Time                         $44.51
                             NTFT                                         $43.88
                             PSE                                          $17.59
                            Source: EDW, February 2013.

The Postal Service did achieve a slight reduction in overall hourly labor costs in
FY 2012. For example, the average hourly labor cost for all employees nationwide
declined modestly, from $41.54 in FY 2010 to $41.27 in 2012 although health care and
cost of living increased. However, in spite of this reduction, further opportunities through
increased use of PSEs exist. For example, P&DCs that used a larger percentage of
PSE workhours generally had lower hourly labor costs. For instance, the Louisville
P&DC had the lowest hourly labor cost of $38, with 23 percent of its clerk workhours
filled by PSEs. However, the Minneapolis P&DC had the highest hourly labor cost of

4
    National grievance filed August 11, 2011.
5
    Assessment of Overall Plant Efficiency 2012 (Report Number NO-MA-12-001, dated April 27, 2012).

                                                          4
Use of Non-Traditional Full-Time                                                                     NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations

$45, with no PSE workhours. Furthermore, the five P&DCs with the lowest labor rates
all used PSEs to the fullest extent allowed. Conversely, the five P&DCs with the highest
labor rates had either no or little (less than 5 percent) PSE workhour usage in FY 2012
(see Appendix B, Table 2).

Overtime Cost Savings

The Postal Service could reduce overtime costs through increased use of PSEs in place
of career employees earning overtime. For example, for the 26 pay periods
encompassing most of FY 2012,6 the Postal Service could have saved about
$30.6 million7 in overtime costs had they realized a 1.5 percent8 reduction in overtime
through the use of PSEs (see Appendix C).

Recommendations

We recommend the vice president, Network Operations, direct managers to:

1. Provide additional training to improve the utilization and supervision of
   non-traditional full-time positions.

2. Periodically evaluate postal support employee staffing to optimize usage of these
   employees.

Management’s Comments

Management agreed with the recommendations in the report but disagreed with the
monetary impact. Specifically, in response to recommendation 1, management stated
they will develop training for field supervisors and managers, with field managers
required to complete the training by the end of 2013, effective January 2014.

Regarding recommendation 2, management will continue to monitor the usage of the
PSEs to ensure optimized coverage, effective June 2013.

Management did not agree with our conclusion that they could have reduced labor and
overtime costs had they hired PSEs up to the contractual limits, stating that their ability
was limited by the contract’s restrictions on PSE usage. Specifically, Postal Service
cited contract provisions 12.4.D and 12.5B2. Articles 12.4.D, which states that the
Postal Service, in excessing situations, must first separate (terminate) PSEs. Article
12.5B2 states the Postal Service must withhold sufficient full-time and PTF positions
within the area for possible reassignment and that the Postal Service must also identify

6
  We looked at 26 pay periods, including data from pay period 21 in calendar year (CY) 2011 through pay period 20 in
CY 2012.
7
  We calculated overtime savings using the Postal Service’s clerk PSE (Function 1) District Opportunity Report for
each pay period in FY 2012. To be conservative, we assumed that PSEs would work 30 hours per week (or
1,560 hours per year) consistent with the FY 2013 final field budget.
8
  The 1.5 percent overtime reduction is a goal in the FY 2013 Postal Service budget.

                                                         5
Use of Non-Traditional Full-Time                                             NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations

employee positions and make them available as necessary for reassigning excess
employees. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report and corrective actions
should resolve the issues identified in the report.

While we recognize that management faces certain constraints set forth in the labor
agreement regarding the use of PSE positions, we believe our calculations are
reasonable and would not have required a significant increase in the number of PSEs.
We based our calculation of $30.6 million in questioned costs on reducing the FY 2012
Function 1 clerk workhour overtime rate from 4.7 percent to 3.2 percent. To achieve this
overtime rate reduction, PSE use would have only increased from 11.1 percent to 12.3
percent of Function 1 workhours in FY 2012. In addition, reduction in the overtime rate
would be at processing and distribution facilities without sufficient staff, not those in
need of excessing staff and, therefore, would not be significantly affected by the
restriction in Article 12.4.D.

With regard to the other restrictions in Article 12.5B2, even though the Postal Service
must withhold positions, there is no restriction preventing them from temporarily using
PSEs to reduce overtime until these positions are filled from reassignments. We do
acknowledge that the restriction that PSE duty assignments must be available for
excess employee reassignments would hinder the Postal Service’s ability to maximize
the use of these employees. However, the modest increase in the use of PSEs
necessary to achieve our $30.6 million overtime cost reduction would not require
maximizing the use of PSEs and, therefore, would have been attainable in spite of this
contractual restriction.




                                            6
Use of Non-Traditional Full-Time                                                                      NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



                                 Appendix A: Additional Information

Background

The Postal Service ended FY 2012 with a record net loss of $15.9 billion,
compared to a net loss of $5.1 billion for the same period last year. The
postmaster general stated that "Postal Service network costs are fixed and –
as the network exists now – are too high for today’s reduced mail volumes."9
He also stated that "the Postal Service projects a further reduction of the
equivalent of 155,000 full-time career employees by 2016, which we plan to
achieve largely through attrition as half of our career employees are eligible
for optional or early retirement."

On October 1, 2012, the Postal Service offered early retirement to APWU employees
(clerks, mechanics, and drivers), effective January 31, 2013. The Postal Service
estimates that about 26,500 APWU employees will accept the early-out retirement offer.

Title 39 U.S.C. states that “the Postal Service shall plan, develop, promote, and provide
adequate and efficient postal services at fair and reasonable rates and fees.” 10 In
addition, the Postal Reorganization Act requires the Postal Service to engage in the
collective bargaining process.11 The national union agreements include provisions that
address the way the Postal Service compensates and deploys its employees.

Effective May 23, 2011, the Postal Service and the APWU adopted the 2010-2015
National Agreement. The postmaster general stated that “We sought and were able to
achieve greater workforce flexibility, immediate cost relief, and long term structural
changes.”12 This agreement added language creating two new flexible employee
categories:13 PSE14 and NTFT positions.15 In July 2012, the Postal Service and the
APWU issued the JCIM detailing work rules and conditions for these employees.

Objective, Scope, and Methodology

Our objective was to assess the use of NTFT and PSE positions. To meet our objective,
we performed analyses of the mail volume, workhours, and trends for FYs 2010, 2011,
and 2012 at the 50 largest P&DCs. We also performed a correlation analysis between

9
  March 27, 2012 statement before the Subcommittee on Federal Workforce, U.S. Postal Service and Labor Policy,
U.S. House of Representatives.
10
   39 U.S.C. §403, Part 1, Chapter 4.
11
   39 U.S.C. §1201(a).
12
   April 5, 2011 statement before the Committee on Oversight and Government Reform, U.S. House of
Representatives.
13
   Effective August 27, 2011, there will no longer be Function 1 PTF, PTR, or casual employees working at
processing and distribution operations.
14
   PSE positions replacing casual employees may not exceed 360 calendar days per appointment, and must remain
at 20 percent of the workforce in the district.
15
   NTFT duty assignment employees may have a weekly schedule with a total of between 30-48 hours. The
workforce of employees in NTFT duty assignments may not exceed 50 percent of the full-time staffing at the facility.

                                                          7
Use of Non-Traditional Full-Time                                              NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations

the use of flexible employees and first-handling piece productivity. The results proved
inconclusive and indicated that a longer time span is needed to better evaluate the
possible effects using flexible employees would have on productivity. We may address
this issue in a future audit. We also reviewed policies, procedures, contracts, and
grievances with regard to PSE and NTFT positions at the Postal Service. In addition, we
conducted a survey of the 50 largest P&DC plant managers and telephone interviews of
20 of the selected 50 P&DC plant managers.

We relied on computer-processed data maintained by Postal Service operational
systems, which includes the Management Operating Data System and EDW. We did
not test the validity of controls over these systems. However, we did verify the accuracy
of the data by confirming our analyses results with Postal Service managers and other
data sources. In addition, we relied on prior OIG reviews of Postal Service systems.

We conducted this performance audit from October 2012 through May 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our finding and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 1, 2013, and included their
comments where appropriate.




                                            8
Use of Non-Traditional Full-Time                                             NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



Prior Audit Coverage


                                      Report                                Monetary
         Report Title                Number        Final Report Date         Impact
Efficiency of the Los              NO-AR-12-009         9/21/2012          $4,318,829
Angeles International
Service Results:
Report    Center
Although management at the Los Angeles International Service Center (ISC) has made
progress in improving productivity in FY 2012, further opportunities exist for
improvement. Los Angeles ISC management did not fully evaluate operational efficiency
and staffing based on workload, establish realistic productivity goals or targets, or
always properly supervise employees. In addition, management did not maximize the
use of automated and mechanized equipment. Consequently, the Los Angeles ISC used
more workhours than necessary to process its mail volume. We estimate that
management at the Los Angeles ISC could further improve productivity by reducing
63,170 workhours. If they avoid these workhours, the Postal Service could save almost
$2.2 million annually. Management agreed with the recommendations in the report.
Specifically, management agreed to increase mail volume by 15.6 million pieces per
year and save 63,170 workhours by 2014; periodically evaluate efficiencies and
integrate the ISCs into their baseline staffing model; perform process studies to analyze
underutilized mechanization; establish productivity goals; monitor operations to ensure
that all employees are gainfully employed; and create a supervisor training curriculum
and conduct training as necessary.

X
Efficiency of the Los            NO-AR-12-007             8/3/2012          $13,036,879
Angeles Network
Distribution Center
Report Results:
While the Los Angeles Network Distribution Center (NDC) made progress in reducing
workhours over the past several years, further opportunities exist for improvement.
Specifically, the Los Angeles NDC did not attain the average productivity of all NDCs
above the median productivity or take full advantage of existing automation.
Consequently, the Los Angeles NDC used 200,019 more workhours than necessary. If
the Postal Service eliminated these workhours, there would be an annual avoidance of
about $6.5 million in labor costs. Additionally, the Los Angeles NDC damaged a daily
average of 3,700 of the 175,000 pieces of mail handled daily. This could adversely
impact service and result in about $500,000 in revenue at risk annually. Management
agreed with the recommendations in the report. Although management disagreed with
the cost savings, they agreed with the workhour savings. The Pacific Area agreed to
monitor efficiency, conduct business reviews, and provide additional training in
accountability, labor relations, union contracts, communications, and employee
oversight.
X



                                             9
Use of Non-Traditional Full-Time                                              NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations


Efficiency Review of the           NO-AR-12-005        6/5/2012            $22,747,745
Cleveland Processing and
Distribution Center
Report Results:
While the Cleveland P&DC made significant progress in increasing productivity during
the past several years, further opportunities exist for improvement. Specifically, the
Cleveland P&DC did not attain the efficiency achieved by other P&DCs or take full
advantage of existing automation. These conditions occurred, because Cleveland P&DC
management did not fully evaluate operational efficiency by benchmarking operations
against other Group 1 P&DCs, analyze workhour trends, and supervise their employees.
In addition, the P&DC did not fully assess its potential automation options.
Consequently, the P&DC was using more workhours than necessary to process its mail
volume. Management agreed with the recommendations and plan to consolidate other
plants into the Cleveland P&DC, increasing both efficiency and equipment utilization. In
addition, management will continue to monitor efficiency and realign supervisors.
Management has completed color-code training and are conducting daily reviews.
X
Assessment of Overall            NO-MA-12-001             4/27/2012         $664,997,872
Plant Efficiency 2012
Report Results:
The Postal Service made substantial progress by reducing workhours in the network
from the previous year. Plants that were the least productive in FY 2010 reduced more
than 5.9 million workhours and improved productivity by 6.95 percent. Regarding
efficiency for FY 2011, productivity for all plants improved by more than 5.9 percent over
the prior fiscal year and overtime decreased by almost 4.2 percent compared with
FY 2010. The Postal Service made these workhour reductions with only slight declines
in service from FYs 2010 to 2011. However, we found the Postal Service had not yet
fully adjusted workhours in response to declining mail volume due to poor economic
conditions nor achieved all possible efficiencies in mail processing operations.
Therefore, the Postal Service is using more workhours than necessary to process mail
volume. Management agreed with our two recommendations: (1) to reduce 14,268,171
workhours with an associated economic impact of $664,997,872 by FY 2014 and
improving operational efficiency in overtime, mail handlings, stand-by time, automated
and mechanized equipment, manual operations, allied operations and indirected/related
operations; and (2) to periodically evaluate operating efficiency. Management will
evaluate efficiency at the operational level by using the Breakthrough Productivity
Initiative model.

Postal Vehicle Service –           NL-AR-12-005        4/25/2012           $94,268,786
Nationwide Analysis

Report Results:
Postal Service Headquarters needs to strengthen nationwide processes, guidance, and
monitoring of fleet management procedures for conducting Postal Vehicle Service (PVS)


                                             10
Use of Non-Traditional Full-Time                                                 NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations


schedule and vehicle utilization reviews. In addition, Postal Service officials could further
increase efficiency nationwide by maximizing the use of NTFT employees and altering
schedules to include the use of split days off where practical. Finally, we determined
that, at some facilities previously audited drivers were not consistently following
prescribed safety procedures when conducting PVS operations. Management generally
agreed with our recommendations but not our monetary impact. Management stated
they will monitor compliance with vehicle utilization reviews; continue to pursue the use
of NTFT employees and PSEs to reduce overall workhours and control costs and will
work with area staff to hire the maximum compliment of PSEs in PVS operations.
Finally, management plans to reissue safety procedures.
X
Postal Service Work Rules        HR-AR-11-002            9/19/2011          $2,591,971,598
and Compensation
Systems

Report Results:
Certain contract provisions and compensation arrangements limit the Postal Service’s
ability to manage its human resources effectively and efficiently. In addition, limitations
on the use of part-time employees reduce workforce flexibility and increase workhours.
Furthermore, certain contract provisions contribute to grievances filed by Postal Service
unions. Management did not agree or disagree with recommendation 1, stating that the
issue of cross-craft flexibility is an old one that has substantial legal implications that
have not been discussed in the report. However, despite contractual and legal
constraints, management has negotiated flexibility on cross-craft utilization and stated
that they continue their efforts to improve their ability to enhance their flexibility within
legal and contractual constraints. Management did not agree or disagree with
recommendation 2; however, they stated that a part-time workforce in various postal
operations has been a major issue in the Postal Service's collective bargaining process.
However, the new APWU national agreement provides for substantial increases in
highly flexible, non-career assignments of varying hours per week. Management stated
that these changes should fully satisfy the flexibility concerns raised in the report with
regard to both mail processing and retail clerks, and they have already achieved much
of the workforce flexibility that the report recommends they pursue. Management
disagreed with recommendation 3, stating there is no rational basis for the savings
estimate in the report.




                                             11
Use of Non-Traditional Full-Time                                                 NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



                                Appendix B: Labor Cost Savings

                       Table 2. FY 2012 Comparison of Labor Costs
                         to PSE Workhours for the Top 50 P&DCs

                                                                  PSE Workhours as a
                                                     Hourly     Percentage of Function 1
        Rank                    P&DC               Labor Cost         Workhours
         1         Louisville                             $38                       23%
          2        Pittsburgh                            $39                        19%
          3        Columbus                              $39                        20%
          4        South Suburban                        $39                        22%
          5        Birmingham                            $40                        19%
          6        Kansas City, MO                       $40                        18%
          7        Des Moines                            $40                        16%
          8        Nashville                             $40                        16%
          9        Michigan Metroplex                    $40                        15%
         10        San Antonio                           $40                        14%
         11        St. Louis                             $40                        15%
         12        Salt Lake City                        $41                        14%
         13        Indianapolis                          $41                        14%
         14        Baltimore                             $41                        12%
         15        Margaret Sellers                      $41                        12%
         16        Richmond                              $41                        13%
         17        San Jose                              $41                         8%
         18        Sacramento                            $41                        11%
         19        Philadelphia                          $42                         9%
         20        Charlotte                             $42                        12%
         21        Tampa                                 $42                        11%
         22        Carol Stream                          $42                         9%
         23        Los Angeles                           $42                         9%
         24        Atlanta                               $42                        12%
         25        Phoenix                               $42                         7%




                                              12
Use of Non-Traditional Full-Time                                            NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



                                                             PSE Workhours as a
                                                           Percentage of Function 1
        Rank                 P&DC             Labor Cost         Workhours
         26        Santa Clarita                     $42                        6%
         27        Cincinnati                       $42                        11%
         28        Dominic V. Daniels               $42                         7%
         29        Mid-Island                       $42                         9%
         30        Milwaukee                        $42                         9%
         31        Denver                           $43                         8%
         32        New York Morgan                  $43                         3%
         33        Fort Worth                       $43                         8%
         34        Cleveland                        $43                         6%
         35        Houston                          $43                         1%
         36        Saint Paul                       $43                         4%
         37        North Metro                      $43                         8%
         38        Santa Ana                        $43                         6%
         39        Chicago                          $43                         2%
         40        North Houston                    $43                         6%
         41        Palatine                         $43                         1%
         42        North Texas                      $44                         8%
         43        Dallas                           $44                         3%
         44        Brooklyn                         $44                         4%
         45        San Francisco                    $44                         1%
         46        Seattle                          $44                         0%
         47        Jacksonville                     $44                         4%
         48        Detroit                          $45                         3%
         49        Oakland                          $45                         0%
         50        Minneapolis                      $45                         0%
   Source: EDW, February 2013.




                                         13
Use of Non-Traditional Full-Time                                                                     NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



                                     Appendix C: Monetary Impact

                                                                                             Amount (in
      Recommendation                              Impact Category
                                                                                              Millions)

                 1                              Questioned Costs16                           $30,656,031


    We calculated potential savings of $30.6 million in clerk overtime for FY 2012.17

    We calculated overtime savings using the Postal Service’s clerk PSE District
     Opportunity Report for each pay period reviewed in FY 2012. The report calculates
     how many additional PSE clerks could be hired to replace overtime hours of career
     clerks that exceed the base overtime rate of 3 percent.

    We multiplied the applicable hourly savings18 in each pay period by the workhours of
     possible Function 1 PSE hires, based on the PSE contractual agreement limit of 20
     percent per district.

    We determined overtime percentage by subtracting the Postal Service’s national
     Function 1 career clerk overtime percentage minus 1.5 percent, using a 60-hour pay
     period.19

The OIG classifies these savings as questioned costs.




16
   A cost the OIG believes is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or
contract.
17
   We looked at 26 pay periods, including data from pay period 21 in CY 2011 through pay period 20 in CY 2012.
18
   The hourly savings were calculated in the Postal Service’s report by subtracting the PSE composite rate minus the
career clerk overtime rate in each pay period. The rates were different in each pay period.
19
   We used 60 hours per pay period, because PSE clerks may work less than 80 hours per pay period.

                                                         14
Use of Non-Traditional Full-Time                              NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations



                          Appendix D: Management's Comments




                                         15
Use of Non-Traditional Full-Time              NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations




                                         16
Use of Non-Traditional Full-Time              NO-AR-13-003
 and Postal Support Employee Positions
 in Processing Operations




                                         17
